1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
703.243.9423
www.consovoymccarthy.com

January 8, 2020
By Email and First Class Mail
Hon. Scott S. Harris, Clerk of Court
Supreme Court of the United States
1 First Street, N.E.
Washington D.C. 20543
Re:

Trump v. Mazars, No. 19-715
Trump v. Deutsche Bank, No. 19-760

Dear Mr. Harris:
For purposes of Rule 37.3(a), the Petitioners in the above-captioned consolidated cases hereby
grant blanket consent to the filing of amicus curiae briefs in support of either or neither party.
Respectfully submitted,
/s/ William S. Consovoy
Counsel of Record for Petitioners

cc: Douglas N. Letter (counsel for the Committee on Oversight and Reform, Committee on
Financial Services, and Permanent Select Committee on Intelligence of the U.S. House of
Representatives)
Jerry D. Bernstein (counsel for Mazars USA LLP)
James A. Murphy (counsel for Capital One Financial Corporation)
Parvin D. Moyne (counsel for Deutsche Bank AG)

